                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections


                                                     Inspection of
                                                Embassy Lusaka, Zambia

                                            Report Number ISP-I-12-41A, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                                  1
Context                                                        2
Executive Direction                                            3
  Planning                                                     3
  Innovative Practice: Missionwide Operational Coordination    4
  Morale                                                       4
  First- and Second-Tour Program                               5
Policy and Program Implementation                              6
  Reporting and Analysis                                       6
  President’s Emergency Plan for AIDS Relief                   7
  Foreign Assistance                                           9
  Law Enforcement                                              9
  Public Diplomacy                                             9
  Consular Affairs                                            11
Resource Management                                           14
  Management Overview                                         14
  General Services                                            15
  Facilities Management                                       16
  Human Resources                                             17
  Financial Management                                        20
  Information Management                                      21
Quality of Life                                               24
  Community Liaison Office                                    24
  Health Unit                                                 24
  Overseas Schools                                            24
  Commissary and Recreation Association                       25
Management Controls                                           26
  Delegation of Authority                                     26
  Property Management                                         26
  Gifts                                                       27
  Travel Authorizations                                       27
List of Recommendations                                       28
List of Informal Recommendations                              32
Principal Officials                                           33
Abbreviations                                                 34




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   An energetic and creative Ambassador presides over a productive interagency process at
       Embassy Lusaka. Coordination of a five-agency, $400 million-plus annual health
       initiative is particularly well done and effective.

   •   Customer service in the human resources section is deficient and diminishes mission
       morale.

   •   The most recent chief of mission certification cited property inventory controls as a
       material weakness, but the embassy has not remedied the problem.

   •   The mission’s new compound has the capacity to accommodate planned growth, but it
       needs to develop a space-use plan.

   •   The embassy needs to make more efficient use of its considerable inventory of
       government-owned properties and could benefit from a Bureau of Overseas Buildings
       Operations (OBO) assessment.

   •   The public diplomacy program effectively promotes U.S. policy.

   •   The embassy’s top strategic priority is supporting democracy and good governance in
       Zambia, but this priority is not reflected in U.S. assistance levels.

   •   Locally employed (LE) staff members report that they are not adequately informed about
       issues of interest to them. The existing LE council needs a charter and more regular and
       consultative contact with senior management.

   •   The first- and second- tour (FAST) officer development program lacks structure and
       sustained engagement by the deputy chief of mission (DCM).

   •   The consular section handles a small but complex workload in a professional manner.


The inspection took place in Washington, DC, between April 9 and 30, and in Lusaka, Zambia,
between May 30 and June 12, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        About the size of Texas, Zambia gained independence in 1964 and today has a population
of 13.8 million, consisting of more than 70 Bantu-speaking ethnic groups. The HIV/AIDS
epidemic has ravaged Zambia, with an estimated 13.5 percent of Zambians now infected. More
than 800,000 Zambian children have lost one or both of their parents to HIV/AIDS. Zambia’s
economy is dependent on natural resource extraction, particularly copper, and agriculture. The
economy grew for the 13th consecutive year in 2011 with real growth of 7.6 percent. Foreign
investment in Zambia's mining sector, higher world copper prices, and a bumper corn crop
account for most of the recent growth. The Zambian Government is seeking to diversify the
economy by promoting agriculture, tourism, gemstone mining, and hydropower.

        In September 2011, President Rupiah Banda lost an election to opposition candidate
Michael Sata, making Zambia one of only two countries in the subregion to have had two
democratic transitions of power. The Sata government reinitiated a constitutional reform process
to strengthen Zambian democracy by restricting the powers of the executive branch, but
parliament has not made much progress on the reform agenda.

       Zambia is a member of the Non-Aligned Movement, the African Union, the Southern
African Development Community, and the Common Market for Eastern and Southern Africa,
which is headquartered in Lusaka. The Zambian Defense Force is designed primarily for internal
defense, although it has contributed to African Union and UN peacekeeping operations in
Mozambique, Rwanda, Angola, Sierra Leone, Sudan, and South Sudan. The United States and
Zambia have cordial relations, although the defense relationship is not robust. At the start of his
term, President Sata expressed an interest in closer relations with the United States.

        U.S. goals in Zambia are good governance, public health, economic growth, and
development. Technical assistance and support in these areas is managed by the Department of
State (Department), in cooperation with the U.S. Agency for International Development
(USAID), the Centers for Disease Control and Prevention (CDC), the Department of Treasury,
the Department of Defense, and the Peace Corps. Zambia has the largest Peace Corps program in
Africa with more than 240 volunteers and 15 employees.

      The United States is not one of Zambia’s top 10 trade partners, but U.S. exports to
Zambia in 2011 more than doubled over 2010 levels, to approximately $129 million, most of
which was mining and transportation equipment; Zambian exports to the United States in the
same year had a value of $47 million and consisted largely of unwrought cobalt.

        The Office of Inspector General (OIG) team focused on management performance,
staffing, and foreign assistance. Embassy Lusaka has 413 employees, of whom 85 are U.S. direct
hires. CDC, with 47 employees, and USAID, with 87 employees, represent the largest non-
Department presence. The mission was last inspected in June 2005.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Executive Direction
         An energetic and thoughtful Ambassador provides effective leadership to the American
staff at Embassy Lusaka. The DCM returned unexpectedly to the United States on emergency
leave and was not present during the inspection. The Ambassador works well with agency heads
and section chiefs; both he and the DCM are political cone officers and their skills are similar
rather than complementary. Both scored higher on overall management skills than 80 of their
recently inspected counterparts; other agency heads in Lusaka gave the Ambassador particularly
high scores as a manager. Regularly scheduled meetings, including a weekly country team
meeting and thrice-weekly morning huddles ensure that all areas of interest and activity are
coordinated and well planned. Policy coordination on health issues, of major interest to almost
all agencies at Embassy Lusaka, is close and productive. During the inspection, the upcoming
visit of a former president and the death of two American citizens in an air crash provided vivid
examples of competent staff members working well together toward the attainment of specific
goals.

         The DCM has not devoted sufficient attention to supervising the management section,
where indecision and questionable procedures have led to customer dissatisfaction. The section’s
focus has necessarily been on immediate operational needs during a year of high-level visits and
international conferences, and it has neglected some key areas relating to equitable treatment of
clients, attention to internal controls, and leadership at all levels. (These issues are addressed in
the Management section of this report.) The DCM needs to signal to the section staff that he
wants to hear about or resolve management challenges. As the embassy consolidates its recent
achievements, the DCM could usefully exercise greater oversight of management operations.

Recommendation 1: Embassy Lusaka should require that the deputy chief of mission
implement a plan to improve management operations, using this report and the risk assessment
questionnaires associated with the chief of mission annual certification as guidelines. (Action:
Embassy Lusaka)

Planning

        The FY 2013 Mission Strategic and Resource Plan, 1 produced in the spring of 2011, is a
clear statement of U.S. goals and objectives in Zambia. It was created in an ambitious exercise
drawing on all agencies at the mission; progress toward each goal is reviewed at least quarterly
in meetings chaired by either the Ambassador or DCM. The FY 2014 Mission Resource Request
(MRR), produced against a tight deadline in spring 2012, drew heavily on the Mission Strategic
and Resource Plan and lays out U.S. objectives clearly and concisely.

       Every 2 weeks the DCM chairs an interagency meeting to coordinate travel, outreach,
and representational activities. These meetings review an activity calendar allowing section and
agency heads to deconflict events and provide mutual support.


1
 In December 2011, the Department issued 11 STATE 124737, which discontinued the Mission Strategic and
Resource Plan. The MRR (3-year strategic plans, with shorter annual resource requests) replaced the Mission
Strategic and Resource Plan beginning with the FY 2014 budget cycle.
                                               3
                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Innovative Practice: Missionwide Operational Coordination


Innovative Practice: Missionwide Operational Coordination

Issue: In a busy mission with five sections and five agencies, it is a challenge to maximize
efficiencies in travel, outreach, and representation and to avoid scheduling conflicts, while
ensuring that mission elements do not compete against one another for media attention.

Response: Every 2 weeks the DCM chairs an interagency meeting that coordinates travel,
outreach, and representational activities by all mission elements. These meetings review a
calendar (operations plan) of activities going forward at least 2 months.

Result: The coordination and information sharing permit section and agency heads to deconflict
events and provide mutual support, as needed. The biweekly discussions around the operations
plan permit all mission elements to realize valuable synergies in their activities, including the
effective coordination by the public affairs section of media coverage.


Morale

        American employees who responded to inspection questionnaires scored their own
morale and attention to morale by both the Ambassador and DCM higher than American
employees at other recently inspected missions. In personal interviews, some pointed to multiple
events in 2011 (visits by the Secretary of State and a former president, a major U.S. conference,
and a hotly contested presidential election) as having been difficult to handle. The high
operational tempo has been hard to sustain. At the time of the inspection, mission staff was
preparing for an upcoming unanticipated second visit by a former president.

        The Ambassador’s goal of consolidating gains from the mission’s “big year” is known
missionwide, since communication passes well from the top to the bottom of the mission. The
Ambassador expressed to the OIG team his concern about the effect of the high work tempo on
mission staff; he knows they have worked exceedingly hard over the last year and he has
indicated the need to have the mission consolidate its achievements. Yet, success has been
breeding more success: the Secretary of State mentioned Zambia twice in a June speech in Oslo
and a recently signed Millennium Challenge compact will bring additional staff and $355 million
in funding over the next 5 years. Slowing down, if that is the goal, may be difficult.

          As measured by inspection questionnaires, the LE staff appeared to have good morale.
(b) (5)


                                                                     Although the DCM and
management officer meet quarterly with the council, LE staff participants termed the meetings
inconclusive. The LE staff council has no charter or bylaws, a situation the DCM promised to
help remedy 2 years ago. Better consultations and more frequent meetings between embassy
management and LE staff, including their elected representatives, are required to overcome these
shortcomings.
                                                4
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Recommendation 2: Embassy Lusaka should implement a charter for the locally employed staff
council. (Action: Embassy Lusaka)

Recommendation 3: Embassy Lusaka should implement a plan that improves consultations and
information sharing with the locally employed staff council and includes more frequent meetings
with the management officer and the deputy chief of mission and occasional participation by the
Ambassador. (Action: Embassy Lusaka)

First- and Second-Tour Program

        Nine Department FAST officers and a slightly larger number of USAID officers
participate in FAST development. The DCM does not regularly attend monthly FAST program
meetings. Notwithstanding general Department guidance, he is not the reviewing officer for all
Department FAST officers. The FAST officers have formed a single group that meets monthly
with section chiefs, agency heads, and visitors. A FAST officer serves as the coordinator in
charge of scheduling individual events; the efficacy of the program depends on the energy of that
individual rather than supervision by the DCM.

Recommendation 4: Embassy Lusaka, in coordination with the Bureau of Human Resources,
should implement a written first- and second-tour officer and specialist development program.
(Action: Embassy Lusaka, in coordination with DGHR)




                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Reporting and Analysis

       Washington consumers assess the mission’s political and economic reporting as ample
and of high quality. Analytical reporting is limited but sufficient, and contributes to
policymaking within the Department and more widely in the government. Since the 2011
presidential elections, which saw one of Africa’s few democratic transitions of government, the
mission’s reporting has focused heavily on internal political developments.

        The combined political/economic section’s three officers and two LE staff members
provide a steady stream of reports on political and economic issues. The section also is adding a
second expanded professional associate program position that will have commercial-economic
responsibilities. The section’s entry-level officer supervises the coordinator of the Ambassador’s
self-help fund. The coordinator administers $100,000 in small grants, which draw equally from
the Ambassador’s self-help fund and the U.S. African Development Foundation, in accordance
with Department grants guidelines.

        Due to personnel limitations, reporting on environment, science, technology, health, and
labor is not extensive. Most political-military issues are covered by other agencies, which
coordinate their reporting with the political/economic section. The LE staff is experienced and
provides the section with a solid array of contacts in government and the business sector,
although the lack of private office space complicates efforts to have sensitive telephone
conversations.

        The section maintains hard-copy files that are more than 30 years old, which does not
comply with Department procedures (5 FAM 414.5 and 5 FAH-4 H-113) for managing and
retiring records. Missions are required annually to retire electronic and hard-copy files to ensure
record preservation and reduce mission vulnerabilities.

Recommendation 5: Embassy Lusaka should retire official records annually. (Action: Embassy
Lusaka)

        The mission anticipates that the political-economic section chief will assume a higher
public profile, and the OIG team counseled mission leadership on ways to achieve this goal.

        With one economic officer, the mission has given priority to advocacy for U.S. business
over economic reporting, which has been of high quality but limited in volume. In its 2014
MRR, the mission identified the need for an additional economic officer position. The mission is
also a Foreign Commercial Service partner, and the political/economic section is pursuing
avenues for increasing its economic reporting and commercial advocacy, which the OIG team
encouraged. Such steps include using the portion of the commercial service fees that the section
collects to fund an additional LE staff position.

       The section actively engages in outreach, especially to U.S. and Zambian businesses. The
mission took advantage of the May 2011 African Growth and Opportunity Act forum to promote

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

the establishment of the American Chamber of Commerce in Lusaka, which the mission used to
leverage its business outreach. Other embassies in the subregion are using the mission’s example
as a model. The OIG team observed section staff engaging in teleconferences as part of the
Department’s Direct Line to American Business program, assisting U.S. firms interested in trade
and investment opportunities in Zambia. During the inspection, a major U.S. agricultural firm
broke ground on a $10 million regional training center.

President’s Emergency Plan for AIDS Relief

         By 2005, HIV/AIDS had plunged Zambian life expectancy to just 38 years. President’s
Emergency Plan for AIDS Relief (PEPFAR) funding—$306 million in FY 2011—is by far the
largest element of U.S. foreign assistance in Zambia and has had a substantial impact on quality
of life and social stability. More than 400,000 people receive treatment, deaths from HIV have
decreased dramatically, and the prevalence of HIV/AIDS has declined. PEPFAR funding is
implemented by five agencies (CDC, USAID, Department of Defense, Peace Corps, and the
Department).

        The small PEPFAR coordination office of six employees prepares annual plans and
reports. A PEPFAR deputy position is being established and will be funded by the Department.
The country coordinator, one of the most experienced in Africa, enlisted the Ambassador’s
support in fostering greater Zambian ownership. As a result, President Sata in late 2011
announced a doubling of government funding for antiretroviral drugs from $5 million in 2011 to
$10 million in 2012 and an overall increase of 45 percent in the national health budget. PEPFAR
leveraged this commitment by pledging an additional $30 million for HIV/AIDS above the FY
2011 funding level of $276 million, contingent on the Government of Zambia making good on
its commitment.

       The PEPFAR coordinator is an employee of the Department of Health and Human
Services. Though accountable to the Global AIDS Coordinator in the Department, the PEPFAR
coordinator is formally evaluated by the Department of Health and Human Services. This
arrangement creates some challenges for PEPFAR. The tone of collaboration set by the
mission’s leadership has contributed, however, to excellent interagency cooperation.

        The PEPFAR coordinator estimates that the funding "pipeline" (appropriated funds that
have not been obligated) is between $200 million and $300 million. To bring funding and
spending into balance, the Office of the Global AIDS Coordinator anticipates reducing the
PEPFAR budget request for Zambia in FY 2012, although all FY 2012 activities will continue as
planned using prior year funding. The coordinator is a voting member of the country
coordinating mechanism that monitors and coordinates resources in Zambia for the Global Fund
to Fight AIDS, Tuberculosis, and Malaria (Global Fund), an international donor mechanism. The
Global Fund recently decided that the Ministry of Health is not a suitable principal recipient of
Global Fund monies. Funding for the Ministry of Health will be temporarily channeled through
the UN Development Programme, while capacity at the ministry is increased, and through the
Churches Health Association of Zambia. The PEPFAR coordinator actively engages with the
Global Fund at its Geneva headquarters as well as in Zambia.



                                          7
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Although PEPFAR has the lead in Zambia in combating HIV/AIDS, the new Zambian
Government has committed to pick up a growing share of the responsibility, particularly with
regard to funding antiretroviral therapy for its citizens. There has been a partnership framework
in place since 2010 that encourages greater Zambian ownership, outlines the partner country’s
planned budget for HIV/AIDS, and provides for a transition to Zambian leadership on AIDS
relief.

        According to the members of the embassy’s PEPFAR team, Zambia is making limited
progress building technical expertise and the capacity to deliver services, which is needed to
ensure the program’s sustainability. The Defense Department is providing $18 million in FY
2011 funding that mostly supports the construction of clinics. With some difficulty, PEPFAR
tracks Zambian prevention and care effectiveness. PEPFAR also provides leadership to Zambia
on treatment and strengthening the health system.

       The PEPFAR country operational plan projects approximately an 18 percent rise in
Zambian funding between 2012 and 2015, in addition to Zambia’s commitment to double its
funding for antiretroviral drugs in 2012. Zambia’s funding for AIDS treatment, care, support,
and prevention in 2012 still represents less than 5 percent of U.S. funding, and is projected to
remain less than 20 percent in 2015. The funding pipeline may also affect Zambian willingness
to make further commitments. The PEPFAR coordinator has not been required to report on how
Zambia has performed on its funding commitments. This indicator was recently included in the
FY 2013 country operational plan, which will inform Washington about Zambian performance.

Cooperative Agreements

        The PEPFAR office is issuing about 60 cooperative agreements in FY 2012, averaging
about $12,000 each, for HIV/AIDS prevention, orphans, and vulnerable children. Competition,
monitoring, and followup for the cooperative agreements are good; however, the office is not
entering the agreements into the Grants Database Management System as required by the Office
of the Procurement Executive.

Recommendation 6: Embassy Lusaka should enter all cooperative agreements into the Grants
Database Management System. (Action: Embassy Lusaka)

        The PEPFAR office uses an outdated and improper form for its cooperative agreements
instead of the Award Specifics and Post/Program Specifics templates mandated in Grants Policy
Directive 31. In addition, the office does not seek regional bureau approval for assistance
agreements over $10,000, as required by Grants Policy Directive 11, or check the Excluded
Parties List System, as required by Grants Policy Directive 19. Grants files lack some required
documents, including the DS 4012 form and SF 424, as specified in Grants Policy Directive 03.

Recommendation 7: Embassy Lusaka should use the Award Specifics and Post/Program
Specifics templates for cooperative grants agreements under the President’s Emergency Plan for
AIDS Relief program. (Action: Embassy Lusaka)

Recommendation 8: Embassy Lusaka should follow procedures outlined in the Office of the
Procurement Executive’s Grants Policy Directives. (Action: Embassy Lusaka)
                                           8
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



Foreign Assistance

        In FY 2011, the United States provided Zambia with nearly $400 million in foreign
assistance. USAID’s operating year budget for Zambia totaled 260 million, including over $164
million for HIV/AIDS programs using PEPFAR funding, $24 million through the President’s
Malaria Initiative, and over $19 million through the Feed the Future Initiative. CDC provided
more than $100 million in funding. The Peace Corps program in Zambia is the largest in Africa
and involves more than 240 volunteers and 15 extension and Peace Corps response volunteers.
Security assistance (International Military Education and Training funds of $350,000 in FY
2011) is adequate, given that Zambia does not currently contribute troops to UN peacekeeping
operations. Zambia has a limited defense relationship with the United States, although there are
some cooperative efforts on demining along the Angolan border. A resident Treasury advisor
provides technical assistance to the Ministry of Finance on tax and revenue collection.

        A top priority of the mission is promoting democracy and good governance, but funding
($1.6 million in FY 2011) in this area is less than 1 percent of overall USAID-provided foreign
assistance to Zambia.

        The May 2012 signing of a U.S.-Zambia Millennium Challenge compact will extend
$355 million over 5 years to Zambia, mostly for infrastructure development. The mission
anticipates that implementation of the compact will result in two new U.S. direct-hire and three
LE staff positions.

Law Enforcement

        The regional security officer is the only U.S. law enforcement presence in the mission.
The regional security office provides support to U.S. law enforcement agencies based in South
Africa, including the Department of Homeland Security (Immigration and Customs
Enforcement, U.S. Secret Service, and the Transportation Security Administration), the Drug
Enforcement Agency, and the Federal Bureau of Investigation. The section worked closely with
the U.S. Secret Service in 2011 in connection with two visits by a former President and a visit by
the U.S. Trade Representative, and in connection with Zambian seizures of counterfeit currency.
Zambia is not a recipient of Anti-Terrorism Assistance program funding.

Public Diplomacy

        The public affairs section runs well-focused programs that effectively promote U.S.
policy and ideals. The section has identified its key issues and audiences—youth, women, civil
society organizations, and entrepreneurs—and has implemented a communications and
programming strategy to achieve mission goals. Good intra-embassy coordination enables the
mission to highlight U.S. development and humanitarian assistance. To evaluate the
effectiveness of its outreach and messaging, the section has assembled a standing focus group of
prominent young people in the arts, media, and other fields. As part of its focus on
disadvantaged youth, the section is inaugurating the Access Microscholarship Program to
improve the English language skills of 40 students from 10 high schools to prepare them for
college.
                                          9
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        The ambitious programming pace and the section chief’s forceful leadership style have
also produced (b) (5)       management problems in the section. (b) (5)
                                                                                   Changing and
overlapping job responsibilities also cause confusion; the OIG team provided counseling on
ways to address this issue. In addition, the decisionmaking authority of the deputy section chief
is unclear and insufficient. The developmental potential of this entry-level position would be
enhanced and section productivity increased by giving the deputy a more prominent role both
within the section and in interagency fora.

       Informal Recommendation 1: Embassy Lusaka should clarify the portfolio and expand
       the decisionmaking authority of the deputy public affairs officer.

Information and Public Outreach

         The section previously operated a separately located American Cultural Center that
housed the Information Resource Center and educational advising functions. A December 2011
fire in the building caused the section to close the center and move those functions into the
embassy. The embassy’s more distant location from downtown Lusaka, stricter security
measures, and limited facilities have hampered the section’s ability to interact with the public.
At the time of the inspection, the embassy was evaluating new sites for a cultural center.

        With the closing of the American Cultural Center, electronic outreach took on added
importance. Multiple staff members post items on the embassy’s Facebook site, which has
attracted almost 5,000 fans and interactive comments. The public affairs section also highlights
embassy activities on Podbean (a site for recorded audio clips), Twitter, Flickr, and YouTube.
However, it has not registered these sites on the Information Technology Asset Baseline as
required by 5 FAM 793.1 d., or included terms of use as required by 5 FAM 793.4 b.

Recommendation 9: Embassy Lusaka should register its official social media sites on the
Information Technology Asset Baseline and include terms of use on the sites. (Action: Embassy
Lusaka)

Administrative Issues and Grants

        The section has expanded the duties of two positions. The section chief’s LE secretary
also manages grants, procurement, and other administrative tasks; the audiovisual technician
carries out extensive information outreach, including social media and the section’s innovative
program of providing podcasts (audio files and interviews) to 56 local radio stations. The
position descriptions include the new duties, but the job titles do not, and the Computer-Assisted
Job Evaluation process took place before the addition of the new duties.

       Informal Recommendation 2: Embassy Lusaka should evaluate the job titles and grades
       of the section’s secretary and audiovisual technician, rename the positions, and resubmit
       them to the Computer-Assisted Job Evaluation system.


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Some LE staff members have found it difficult to take annual or sick leave because of
insufficient backup capacity in the section. The OIG team counseled the public affairs officer
about ways to provide such coverage.

       The section issues grants with clear budgets and appropriate public diplomacy goals and
has generally succeeded in obtaining program and financial reports from its major grantees by
withholding 10 percent of the funds until the reports are completed. However, the section is
using an outdated and improper grant form instead of the Award Specifics template mandated by
Grant Policy Directive 31. In addition, the grants files lack some required documents, including
the SF 424 and SF 270, as specified in Grants Directive 03. For some grants, the period of
performance began before the grant officer signed the document, which is contrary to Grants
Policy Directive 31, although the embassy released funds properly.

Recommendation 10: Embassy Lusaka should use the Award Specifics template and other
grants documents required by the Office of the Procurement Executive’s Grants Policy
Directives and should begin the grant period after the grant officer signs the document. (Action:
Embassy Lusaka)

       Most public diplomacy grants are small and uncomplicated, but the section issues them as
standard grants. The section could save time and effort by using the simplified Fixed Obligation
Grant format, as described in Grants Policy Directive 35.

       Informal Recommendation 3: Embassy Lusaka should use the Fixed Obligation Grant
       format for its small, short-term, simple grants.

Consular Affairs

       The consular section runs effectively and efficiently and provides the full range of
consular services. The section takes the lead on several policy issues including trafficking in
persons, refugees, and guiding Zambia toward accession to the Hague Convention on Protection
of Children and Co-operation in Respect of Intercountry Adoption and the Hague Convention on
the Civil Aspects of International Child Abduction. The consul and the team enjoy strong
support from the front office, as shown by the frequent visits by the Ambassador and DCM.

Consular Management

       The section enjoys mutually supportive relations with other parts of the embassy.
Officers in other embassy sections with recent consular experience have reconfirmed their
consular commissions and serve as backup consular officers.

        Relations between officers and LE staff are good. All LE staff members have taken
advantage of training opportunities in the region and in Washington. The consul has created a
comprehensive series of standing instructions on a wide range of procedural matters. The section
also has a good working relationship with and appropriate support from the regional consular
officer in Johannesburg.


                                         11
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The consular section and applicant waiting areas provide sufficient space and room for
expansion. However, the section does not have a secure space for the effects of deceased
Americans as required by 7 FAH-1 H-648.3-2. A lockable workroom serves as a repository for
larger items, but is accessible to too many people for accountability purposes.

Recommendation 11: Embassy Lusaka should provide secure storage for the effects of
deceased Americans. (Action: Embassy Lusaka)

Global Support Strategy

        In the first half of 2011 Lusaka participated in the preparation for the global support
strategy, which is a global coordination for contracted consular services. In the second half of
2011 Lusaka was then part of the information provision package (with a contract service
provider making visa appointments and offering information on consular services online and via
phone). The preparation and initial launch was extremely difficult and the consular section
invested considerable effort in working with the service provider and with the Bureau of
Consular Affairs. Interaction with the service provider was never satisfactory, although the
Bureau of Consular Affairs provided liaison to address issues as they arose. The section
benefited from the reduced volume of inquiries, but the service provider failed to provide
promised reports of their metrics for responding to Zambian inquiries.

        In early 2012, the Bureau of Consular Affairs decided without warning to terminate the
global support strategy for Lusaka and several other missions. As a result, Embassy Lusaka
scrambled to change telephone numbers, warn phone operators, reinstate visa-related Web site
content that was pared down to a minimum per Bureau of Consular Affairs guidance, and make
alternative arrangements. The section is no longer part of the global support strategy, but under
the current guidance it cannot offer customer service and workload enhancing services such as
the courier-return of passports. The consular chief had been in email dialogue with the Bureau
of Consular Affairs regarding problems with the global support strategy and its abrupt
termination; the OIG team counseled the consular chief on writing a front channel cable fully
documenting the problems.

American Citizens Services

         With 3,600 registered U.S. citizens, the American citizen services unit deals with a small
volume of often complex citizenship and emergency cases. The section reinvigorated the warden
network by publishing a quarterly newsletter and dealt with Zambia’s weak infrastructure by
expanding various contact options, including short message service and social media. Consular
officers regularly travel to remote parts of the country, meeting with local officials, and working
with wardens to offer limited consular services to resident U.S. citizens. The OIG team observed
the benefits of the section’s strong network as it responded to the tragic death of two
missionaries in an airplane crash in a remote part of Zambia. The section mobilized wardens to
assist local officials with search and rescue and confirmed the welfare of two surviving young
children. The consul contacted the victims’ family in the United States and assisted them to
travel to Zambia for the children. In an extraordinary gesture, the President of Zambia declared a
national day of mourning for the missionaries.

                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The section held its first warden conference 2 years ago. Since that time the embassy
moved and there has been a notable turnover in wardens. Many of the current wardens have yet
to visit the new embassy.

       Informal Recommendation 4: Embassy Lusaka’s consular section should hold warden
       conferences on an annual basis and encourage the wardens to visit the new embassy.

        There is a good duty officer book and duty officer training is offered once a year for new
arrivals. The OIG team discussed the utility of offering more frequent training. The section has
also worked with the regional security officer to make consular notification of arrests and
detentions part of Zambian Police Academy training.

Nonimmigrant Visas

         Nonimmigrant visa applications had declined slightly over the past decade, but have been
static for the past few years at roughly 3,700 per year. Validation studies confirm that overstay
rates are dropping, and thus visa issuance rates are increasing. Seventeen percent of applicants
are third-country nationals, mostly Indians and Congolese.

        The mission’s visa referral program works satisfactorily. The section also recently put
into place a business facilitation program in cooperation with the local American Chamber of
Commerce and plans to conduct a validation study after a full year of operation.

Immigrant Visas

        In FY 2011 the immigrant visa unit processed 300 cases. Follow-to-join refugee cases, on
which the section works closely with U.S. Citizenship and Immigration Services representatives
in Johannesburg, also constitute a notable part of the unit’s workload. Adoptions form a small,
time-consuming and growing workload. Contracts with and oversight of the panel physicians are
current.

Fraud Prevention

        Zambia is a high-fraud environment. Document unreliability requires constant care,
though it is usually unsophisticated and on a retail scale, rather than in large rings. Nearly half of
all immigrant visa and refugee beneficiaries do not complete required DNA tests. The fraud
prevention unit effectively maintains a high degree of fraud awareness and completes the country
fraud summary reports in a timely manner.

Visas Viper

        The Visas Viper committee meets monthly. The consular chief prepares the reports on
                    (b) (5)
time, although only names have been submitted in the past 2 years.




                                          13
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
             Agency                     U.S.          U.S.        Foreign       Total        Total
                                     Direct-Hire     Local-       Service       Staff       Funding
                                        Staff       Hire Staff    National                  FY 2011
                                                                   Staff
Department of State                            46           21         195          262     $17,472,049
Diplomatic & Consular Program                  24            4           10          38      $1,683,900
ICASS                                           6           11         153          170      $8,746,183
Public Diplomacy                                2            2           11          15       $748,200.
Diplomatic Security                             3            2           15          20        $920,536
Marine Security                                 6            0            3           9        $130,439
Representation                                  0            0            0           0         $71,611
OBO                                             4            0            0           4      $1,775,811
PEPFAR **                                       1            2            3           6      $3,395,369
Department of Defense                           4            0            5           9     $18,169,630
USAID                                          19            4           64          87    $270,000,000
CDC                                            11            0           36          47    $105,758,429
Treasury*                                       1            0            0           1               0
Peace Corps                                     4            0            3           7      $5,950,000
Totals                                         85           25         303          413    $417,350,108

NOTES:
*Treasury budget handled in Washington.
** PEPFAR assistance funding is allocated among implementing agencies and reflected in their
budget figures.

Management Overview

        The management section gets mixed reviews from customers. Although the management
officer is customer service-oriented, the OIG team observed that he is spread thin, diminishing
his effectiveness. After a high-tempo year of visits from senior U.S. Government officials,
international conferences, and a successful move to the new chancery, the management section
needs to focus on improving customer service and internal controls.

       The embassy has done an excellent job of integrating USAID administrative services
with the Department’s International Cooperative Administrative Support Services (ICASS)
platform. USAID administrative support employees are colocated with ICASS employees and
work together effectively.

        Workload distribution within the section is uneven. The ICASS LE staff analysis
indicates that the human resources section is staffed with nearly double the worldwide ratio of

                                         14
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

customers to service providers (18 to 1). On the other hand, the information management staff
has one-half the average worldwide ratio of service providers to customers. (b) (5)




Recommendation 12: Embassy Lusaka should implement a plan to review International
Cooperative Administrative Support Services staffing and redistribute or add resources as
appropriate. (Action: Embassy Lusaka)

General Services

         The general services section is comprised of knowledgeable and capable U.S. direct hires
and LE staff members who are improving service delivery. ICASS customer survey results in
shipping and customs and motor pool are higher than the regional bureau and worldwide ICASS
scores, but there is customer dissatisfaction with supply chain management and procurement.
The warehouse and procurement units have been experiencing a high turnover of the LE staff
(b) (5)                                                      The section has partially recovered by
filling vacant positions and providing professional development opportunities for staff members,
including training from more experienced colleagues at neighboring posts.

Acquisitions and Procurement

        Embassy Lusaka’s procurement staff lacks the skills and training to process procurement
requests efficiently. Deficiencies in processes and procedures result in extensive delays in
receiving supplies. The staff’s diverse workload and their relative lack of experience add to the
difficulties of providing quality service. Procurement agents rely heavily on the receiving clerk
located 8.4 miles from the embassy compound. The receiving clerk is responsible for the receipt
and inspection of all property and the preparation and distribution of receiving reports. Many
small shipments are appropriately delivered directly to the embassy compound, but receipt of
those goods is haphazard. As stated in 14 FAM 413.3 a., the receiving clerk is the link between
the procurement, property, accountability, and certifying functions. Defining the receiving
responsibilities of the embassy clerk would improve operations and internal controls.

Recommendation 13: Embassy Lusaka should assign receiving clerk duties to a staff member
located at the embassy compound. (Action: Embassy Lusaka)

Warehouse

        The embassy’s two leased warehouse facilities are located 8.4 miles from the compound.
The facilities lack appropriate space and ease of access to the mission and are not built to U.S.
safety standards. Because access to the warehouses is not easy, management controls suffer.
OBO has approved a build-to-lease warehouse project on property adjacent to the chancery, but
it has not yet obligated funding. OBO has also developed a preliminary warehouse design. The
lease for the first warehouse will expire in 2013, and the embassy is currently negotiating the
lease for the second warehouse.

                                          15
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 14: The Bureau of Overseas Buildings Operations should find a suitable
warehouse for Embassy Lusaka in time for the embassy to move into the new facility before the
current warehouse lease expires in 2013. (Action: OBO)

Motor Pool

        Embassy Lusaka permits self-drive for “other authorized use” of government-owned
vehicles. The mission’s vehicle policy allows personal use of official vehicles by employees and
their dependents when their privately owned vehicles are not available due to repairs or
scheduled maintenance.

        Transportation for other than business purposes is normally an employee responsibility.
Privately owned vehicles are shipped to posts at U.S. Government expense in consideration of
such responsibility. According to 14 FAM 433.3-1, the chief of mission may approve other
authorized use of official vehicles when public transportation is unsafe or not available or when
such use is advantageous to the U.S. Government, which is defined in 14 FAM 433.3-4. The
interpretation of the regulation normally does not include circumstances that occur while an
employee’s privately owned vehicle is at post and under repair.

Recommendation 15: Embassy Lusaka should update the mission’s vehicle policy to limit self-
drive personal use of government-owned vehicles to arriving and departing U.S. Government
employees who are waiting for or shipping their personal vehicles. (Action: Embassy Lusaka)

Fuel Controls

         The embassy’s written procedures for fuel controls are not comprehensive and do not
provide a sound management control system as required by 14 FAM 423.1. Nor are bulk fuel
deliveries witnessed by U.S. direct-hire personnel. According to 14 FAM 436.2, if a post has a
bulk fuel operation or uses coupons for the purchase of fuel, strict controls must be placed on the
distribution of fuel and coupons. Fuel deliveries for Lusaka residences are handled by the LE
staff in the facilities maintenance office.

Recommendation 16: Embassy Lusaka should implement written fuel standard operating
procedures that provide for the separation of duties and appropriate oversight by a U.S. direct-
hire officer. (Action: Embassy Lusaka)

Facilities Management

        The facilities management office is headed by a first-tour officer who supervises 67
maintenance employees. The facilities manager’s portfolio has increased with mission growth
and related projects. In January 2011, the embassy successfully moved into a $120 million new
compound with space to accommodate additional growth. The new compound’s warranty
expired in October 2011, yet 141 warranty claims remain unresolved. The time and effort
required to followup on these claims, including contractor site visits, has strained the facilities
management office. Attempts to have contracting companies fix outstanding mechanical issues
have been unsuccessful. According to 11 State 136139, the facilities manager should validate

                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

defects observed by post and report them to the Bureau of Overseas Buildings Operations project
executive for final resolution.

Recommendation 17: Embassy Lusaka should, in coordination with the Bureau of Overseas
Buildings Operations, settle the 141 unresolved warranty claims at the new embassy compound.
(Action: Embassy Lusaka, in coordination with OBO)

        Embassy Lusaka is in the process of identifying a new site for the American Cultural
Center. The center is one of scores of significant facilities maintenance/OBO projects at the
mission. A USAID-owned vacant office compound will soon be occupied by CDC. Most of the
24 government-owned residential properties, including the chief of mission residence and the
deputy chief of mission residence, are old and require significant upgrades. OBO funding has
been allocated for electrical upgrades at six government-owned residences. The projects must be
obligated prior to the end of FY 2012. The embassy’s FY 2014 MRR seeks a second facilities
maintenance position due to the heavy facilities workload.

U.S. Government-owned Properties

        Of the 24 government-owned residences, several are 45 to 60 years old and many are on
large lots with expansive gardens. The trees are overgrown, roofs are leaky, electrical systems
are outdated and dangerous, plumbing is problematic, and layouts are outdated. Maintenance
costs exceed the routine maintenance and repair budget. Prudent management of U.S.
Government overseas property includes identification and disposal of properties that are excess,
underutilized, or obsolete. The embassy has requested OBO’s assistance in developing a strategic
property plan and presented OBO with two options to address the underutilized properties. One
is to enter an option-to-lease with one or more developers to build homes on the large lots. The
other is to offer local developers a land swap in return for newer houses. Both options would
reduce lease costs, facilities and housing staff and equipment, generator and generator fuel costs,
and guard costs and improve housing locations. The Department continues to operate under a
mandate from the Congress and the Government Accountability Office to dispose of excess and
unneeded properties and also to dispose of oversized housing. Properties that are vacant without
approved plans for renovation or reuse are not optimally used.

Recommendation 18: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Lusaka, should assess all underutilized or unused U.S. government-owned properties
and implement a plan to either reuse and renovate or dispose of these properties. (Action: OBO,
in coordination with Embassy Lusaka)

Human Resources

        Questionnaires from mission customers indicate satisfaction with recruitment and hiring
of eligible family members (EFM), which reflects the creation of three expanded professional
associate program positions for EFMs. Position descriptions for LE staff are up-to-date, and
virtually all LE staff evaluations are completed on time.

        In contrast to these positive indicators of the section’s effectiveness, and despite ample
staffing levels, the OIG inspectors observed a lack of consistent advocacy for the customer on
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

the part of human resources staff. (b) (5)


                 Per 3 FAH-2 H-311, an attitude of service strengthens a human resources
officer’s effectiveness. Without customer advocacy the human resources section is ineffective.

Recommendation 19: Embassy Lusaka should implement a plan to improve customer service
performance in the human resources section to include logging timeliness and accuracy of
response to queries. (Action: Embassy Lusaka)

Eligible Family Member Employment Program

        The EFM employment program could be improved. EFMs do not get sufficient information
early enough in the recruitment process. The human resources office does not survey prospective
employees, prior to their arrival at post, about skills and interests in work.

       Informal Recommendation 5: Embassy Lusaka should reach out to all eligible family
       members, including incoming eligible family members to assess interests and skill sets of
       potential employees, and to the extent feasible match positions to available skill sets.

       Embassy policy on EFM recruitment and hiring is not clear, and it creates confusion and
misunderstanding on the part of supervisors and job seekers. A clear explanation of the entire
process, including timelines for each step, would help all parties.

Recommendation 20: Embassy Lusaka should publish an eligible family member recruitment
and hiring policy that describes the process and timelines and post it on the embassy Web site.
(Action: Embassy Lusaka)

        Embassy Lusaka does not inform EFM job applicants who are not selected for a job of
the outcome of their job search. In accordance with the Local Employment Recruitment Policy
Guidebook 96 (revised November 2007), EFMs and members of household not selected for jobs
should be so advised in writing. The absence of such notifications undercuts one of the key goals
of the EFM employment program: supporting mission morale through useful and effective
employment.

Recommendation 21: Embassy Lusaka should inform all eligible family member job applicants
of the outcome of their applications for employment. (Action: Embassy Lusaka)

Transparency in Hiring and Promotion

        Both LE staff and EFM personnel files are incomplete. As outlined in the Interagency
Handbook on Foreign Service National Personnel Administration (FSNPAH) 14.2 b. (1), the
official personnel file should contain a comprehensive record of each employee’s service. Per
FSNPAH 14.5 a. (1) (a) and 3 FAH-1 H-2359, the file should include records originating with or
relating to appointment actions. Without a clear record from vacancy announcement to
termination, it is unclear whether a mission’s hiring process is transparent and equitable.


                                           18
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 22: Embassy Lusaka should include all documentation from vacancy
announcement to final termination in employee official personnel files as prescribed by
Department of State regulations. (Action: Embassy Lusaka)
       (b) (5)




Recommendation 23: Embassy Lusaka should apply Department of State regulations
consistently on minimum qualifications for hiring and waiting periods for promotion and should
maintain a log of all new hires and promotions. (Action: Embassy Lusaka)

Annual Leave

        In a 12-month period during 2011-2012, the mission imposed blanket prohibitions for 4
months on the taking of annual leave, due to a series of high-level visits. The OIG team noted
that even outside that period, several employees have had leave refused, some at the last minute.
Employees unable to take leave risk losing it, and it has a negative impact on morale.

Recommendation 24: Embassy Lusaka should develop an annual leave plan for each section to
allow all mission employees to take leave according to personal need to the extent feasible.
(Action: Embassy Lusaka)

Third-Country National Employment

        In June 2010, Embassy Lusaka hired a financial specialist under an employment
agreement that resembles a third-country national agreement. There is no documentation that the
Department authorized such a hiring mechanism. Department regulations (3 FAM 7271.4)
stipulate the conditions for hiring a third-country national. The annual salary of the financial
specialist is $33,000 more than the salary of an LE staff member with equivalent qualifications
and experience. The third-country national hiring mechanism is not justified for any LE staff
position in Zambia.

Recommendation 25: Embassy Lusaka, in coordination with the Bureau of Human Resources,
Office of Overseas Employment, should replace the third-country national financial specialist
with a locally employed financial specialist. (Action: Embassy Lusaka, in coordination with
DGHR)

        Many LE staff members expressed confusion about the local compensation plan, in
particular how it was established and its benefits. As outlined in 3 FAH-2 H-215 C., selected LE
                                         19
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

staff members from various mission elements may assist in the salary survey process. Where LE
staff participation is minimal due to local circumstances, the mission could substantially increase
its briefings of LE staff on survey procedures and findings. When a mission does not provide
information to its LE staff and does not seek information from them on local practices, it risks
deficiencies in its local compensation plan.

Recommendation 26: Embassy Lusaka should thoroughly brief the locally employed staff
committee on how it established salary and benefits and seek its input on the local compensation
plan. (Action: Embassy Lusaka)

Equal Employment Opportunity

               Embassy Lusaka’s Equal Employment Opportunity (EEO) program is strong and
visible. EEO counselors are easily identifiable due to monthly EEO tips in the human resources
newsletter and embassy town hall events. The EEO counselor and an EEO LE staff liaison
provide briefings to all elements of the mission and the wider embassy community, including
agencies that are not located on the embassy compound. Both EEO representatives compliment
the Ambassador in his support of and involvement in the EEO program.

Federal Women’s Program

        The embassy appointed a Federal Women’s Program coordinator shortly before the OIG
inspection, but it has not implemented the program. Executive Order 11478 and 29 CFR
§1614.102 (b) (3) make the status of women an integral part of Equal Employment Opportunity.
According to 3 FAM 1514.2 b., the coordinator of the Federal Women’s Program must be
announced to all mission employees. The OIG team did not observe information on the embassy
compound identifying the Federal Women’s Program coordinator.

Recommendation 27: Embassy Lusaka, in coordination with the Office of Civil Rights, should
implement a Federal Women’s Program. (Action: Embassy Lusaka, in coordination with S/OCR)

Financial Management

        Embassy Lusaka is up-to-date on reporting unliquidated obligations, its cashiering
operation is strong, and it obtains value-added tax exemptions on all purchases and maximizes
use of commercial banks for accommodation exchange. The financial management officer has
begun to reduce excessive staff overtime, and fosters a collegial atmosphere in the section.
However, the staff needs more leadership from him in balancing workload and with regard to the
ICASS process.

Workload

       According to the ICASS Service Center’s analysis of Lusaka’s LE staff, the financial
management office is adequately staffed. However, out of approximately 160 ICASS employees
who worked overtime in FY 2011, the senior financial specialist accounted for 9 percent of total
ICASS overtime funding. This employee supervises eight other LE staff members in the section
and serves as the senior budget analyst and alternate certifying officer, while also managing
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

some of the budget allotments. Per 3 FAH-2 H-124.5 (3), a manager should delegate fairly and
not overburden key employees. Though the financial management officer has cut down on
overtime, workload is still out of balance.

Recommendation 28: Embassy Lusaka should balance the workload among the employees of
the financial management section with more direct supervision by the financial management
officer. (Action: Embassy Lusaka)

International Cooperative Administrative Support Services

       The ICASS council recently supported establishing an ICASS budget committee.
Because the mission is relatively small, the council had previously viewed a budget committee as
unnecessary. According to 6 FAH-5 H-012.7, each embassy must establish an ICASS budget
committee. Without a working-level budget committee to raise and analyze ICASS issues, the
council’s effectiveness in determining how to improve services and cut costs is diminished.

Recommendation 29: Embassy Lusaka should establish an International Cooperative
Administrative Support Services budget committee in accordance with Department of State
regulations. (Action: Embassy Lusaka)

Information Management

        The information management office meets the embassy’s primary information
technology needs. Because of inadequate American staffing, as correctly noted in the MRR, the
office continually adjusts its personnel resources to accommodate priority tasks, while leaving
less essential tasks unaddressed.

        U.S. direct-hire employees work overtime on a daily basis, usually in excess of 10 hours
per week per employee. Working on weekends is typical; skipping lunches is common. The OIG
team validated the need for an additional direct-hire position in the information management
office.

        With considerable overtime work, the embassy’s information management program
effectively administers the traditional array of information technology assets, including classified
and unclassified networks, a dedicated Internet network, Diplomatic Post Office, courier-escort
pouch service, local mail and pouch services, telephone services for the new embassy compound,
and high-frequency and emergency and evacuation radio networks.

        While the office meets minimum requirements, it has close to substandard performance
in some areas like security and maintenance. The OIG team counseled the information
management staff on ways to improve its information security posture and its ability to manage
communication emergencies. Both responsibilities require additional attention. The embassy
consistently scores grades of “A” for network security on the Department’s network and system
monitoring tool, and shared network folders have appropriately assigned access permissions.
(b) (5)




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

            Information management employees are not completing the log book with information
    about network server maintenance. This information is vital for troubleshooting efforts and for
    successful recovery from system failures. The embassy’s alternate command center contains
    required communications components, but it is not regularly tested. The office does not regularly
    test contingency plans for recovering from a catastrophic failure of the network systems. The
    OIG team counseled the office to place higher priority on these elements of the information
    management portfolio.

            Despite staffing challenges, the office scored above average on a recent customer service
    survey. The OIG team counseled the information management staff about managing user’s
    expectations and about making certain that all computers, printers, and software media have
    appropriate stickers to identify the media’s classification level to further improve their customer
    service record.

    Mobile Devices Management

           The information systems center is responsible for managing laptop computers. The
    standard procedures for authorizing, issuing, and tracking laptop computers are adequate and
    generally followed by the staff. (b) (5)



    Recommendation 30: (b) (5)


    Records Management

            Embassy employees are not making effective use of the State Messaging and Archive
    Retrieval Toolset. Reporting officers are not using record emails and most mission staff members
    have not received guidance on the use of record email. There is a general lack of understanding
    of the procedures for determining which emails must be preserved by using the archive function
    of the State Messaging and Archive Retrieval Toolset. Following proper records management
    procedures ensures that important data needed for policy analysis and archival research will be
    available in the future.

           Informal Recommendation 6: Embassy Lusaka should require personnel to take the
           record email training and to use, as required, the State Messaging and Archive Retrieval
           Toolset.
(b) (5)




                                              22
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

          Informal Recommendation 7: (b) (5)

(b) (5)




          Informal Recommendation 8: (b) (5)




                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
Community Liaison Office

       The community liaison office consists of a full-time coordinator and a part-time assistant.
The office provides regular updates to the embassy community regarding quality of life issues.
The community liaison coordinator is a member of the country team, participates in the
emergency action committee and housing board, and enjoys strong support from the Ambassador
and DCM. Mission staff gave the office high scores for its community support efforts.

Health Unit

        The health unit received high scores in survey questionnaires for thorough and friendly
service. However, the Foreign Service health professional finds it difficult to take leave and is on
call 24 hours/7 days of the week. Local providers are not responsive, do not manage pain, and do
not use medications that meet U.S. healthcare standards. As a result, outsourcing of health
services is inadvisable in most cases. In accordance with 3 FAH-2 H-124.5 (3), a manager should
delegate fairly and not overburden key employees. Per 3 FAH-2 H-111 (2) l., this principle
applies as much to U.S. direct-hire employees as to LE staff members. Without a better
balancing of workload, the embassy runs the risk that employee performance will be less
efficient over the long run.

Recommendation 31: Embassy Lusaka, in coordination with the Office of Medical Services,
should implement standard operating procedures to allow its Foreign Service health
professionals to plan vacation well ahead of time and to provide needed coverage for the health
unit. (Action: Embassy Lusaka, in coordination with MED)

       Informal Recommendation 9: Embassy Lusaka should include in the locally employed
       nurse’s position description that the incumbent is on-call after hours.

Overseas Schools

       Most children of embassy employees attend (b)(5)(b)(6)
       a private, coeducational day school that offers an American curriculum (b)(5)(b)(6)

                                                        The school has a good reputation and is a
significant attraction for families considering serving in Zambia. Most embassy families are
satisfied with the educational program and environment of the school, but the school has a
limited capacity to assist students with special learning requirements.

       The seven-person school board of directors includes two representatives appointed by the
Ambassador as voting members, as well as two other embassy employees elected by the school
community. The school receives funding from the Office of Overseas Schools and works closely
with the regional security officer. Security practices are appropriate to the environment, though
the school is (b) (5)


                                          24
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Commissary and Recreation Association

        The employee association provides a small store in the chancery and a larger one in a
residence that is a 15-minute drive from the embassy. Both keep customer-friendly hours, and
the off-site store has adequate parking to accommodate customers. The Department reports that
the association plans its budgets appropriately and has good internal controls. The management
officer serves as the Ambassador’s representative to the board, and is an effective liaison
between embassy management and the association.




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
       In its annual chief of mission certification, the embassy correctly assessed its primary
management controls weakness as property accountability in the annual chief of mission
statement of assurances last year, but it has not completed necessary actions to correct those
weaknesses.

Delegation of Authority

       Embassy Lusaka does not have a delegation of authority document. As outlined in 2
FAM 113.3, embassy management will designate officers to fulfill specific functions by
memorandum. Without this reference document, there is a lack of clarity about who is
responsible and accountable for certain functions.

Recommendation 32: Embassy Lusaka should draft, coordinate, and publish a delegation of
authority document. (Action: Embassy Lusaka)

Property Management

       Embassy Lusaka’s primary warehouse is in disarray due to a lack of oversight by the
property management supervisor. Per 14 FAM 411.2-2 b. and c., effective property management
requires close supervision. Lack of supervision risks theft and loss of property and wastes staff
time repeating work because of disorganization.

Recommendation 33: Embassy Lusaka should assign the appropriate general services officer to
spend at least 5 hours per week between both warehouse locations and incorporate this
responsibility into the officer’s work requirements statement. (Action: Embassy Lusaka)

        The receiving clerk processes all expendable and nonexpendable items. Items shipped
directly to the embassy compound are retrieved and delivered to the warehouse for processing
and then delivered back to the embassy for distribution. Embassy staff provided the OIG team
with several examples of requested items that were stored and not processed in accordance with
Department guidelines and ICASS standards. During the inspection of the warehouse, the OIG
team observed several shipments that were stored for 3 business days or more prior to receipt—
some outside the receiving cage. The embassy uses the Integrated Logistics Management System
asset manager to account for nonexpendable property. In accordance with 14 FAM 413.5 b., the
receiving clerk must immediately affix a bar code label to accountable, nonexpendable property
upon receipt.

Recommendation 34: Embassy Lusaka should implement procedures in conformance with
Department of State guidelines on the receiving functions at the warehouse and embassy
compound. (Action: Embassy Lusaka)

       The warehouse and several additional storage containers are situated on a compound in a
congested commercial area. The warehouse and the containers are filled with unneeded
expendable and nonexpendable property. As specified in 14 FAH-1 H-112.2 f., excess property
                                          26
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

should be disposed of or reconditioned and returned to stock. Continued storage of unneeded
property wastes space and requires regular inventory controls. This excess property includes a
dozen safes that are no longer usable. These safes were returned to the warehouse without proper
procedures or the documentation required by 14 FAM 417.1-4.

Recommendation 35: Embassy Lusaka should conduct a physical inventory of all stored
nonexpendable and expendable property and dispose of those items that are unserviceable or
cannot be reconditioned. (Action: Embassy Lusaka)

        The warehouse in its present state does not meet 14 FAM 413.7 a. requirements regarding
organizing and protecting property. It is unorganized and does not meet minimal requirements
for a shared warehouse. The property of other agencies is not clearly designated. As specified in
14 FAM 413.7 a.(2), commingled property in shared storage space must be identified to show
agency ownership.

Recommendation 36: Embassy Lusaka should establish procedures for handling and storing
Department and other agency property in the embassy warehouse. (Action: Embassy Lusaka)

Gifts

       Embassy Lusaka does not have a standard operating procedure for disposition of gifts and
no designated gifts officer to maintain gift logs and to dispose of gifts in accordance with
Department of State regulations. Per 3 FAM 4122.1, the designated officer for receiving gifts is
the embassy management officer. Because gifts are used and disposed of in accordance with
Department regulations governing property management and disposal, management offices often
delegate this role to the general services office. With no designated gifts officer and no clear
standard operating procedures for gifts disposition, gift recipients are at risk of ethics violations.

Recommendation 37: Embassy Lusaka should include a gifts officer in its designation of
responsibilities memorandum and publish this information in a mission gifts policy. (Action:
Embassy Lusaka)

Travel Authorizations

        The embassy requires travelers’ supervisors to authorize official travel in the E2 travel
approval chain. There is no travel expertise in the chain of approval. It is a generally accepted
Department practice to delegate responsibility for travel authorizations to the general services
officer, as reflected in general services training and regulations. Without approval of an expert,
the mission risks improper travel authorization.

Recommendation 38: Embassy Lusaka should assign the supervisory general services officer
responsibility for reviewing supporting documentation and approving initial authorizations for all
official travel and incorporate this responsibility into both the delegation of authority
memorandum and the officer’s work requirements statement. (Action: Embassy Lusaka)




                                          27
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Lusaka should require that the deputy chief of mission
implement a plan to improve management operations, using this report and the risk assessment
questionnaires associated with the chief of mission annual certification as guidelines. (Action:
Embassy Lusaka)

Recommendation 2: Embassy Lusaka should implement a charter for the locally employed
staff council. (Action: Embassy Lusaka)

Recommendation 3: Embassy Lusaka should implement a plan that improves consultations
and information sharing with the locally employed staff council and includes more frequent
meetings with the management officer and the deputy chief of mission and occasional
participation by the Ambassador. (Action: Embassy Lusaka)

Recommendation 4: Embassy Lusaka, in coordination with the Bureau of Human Resources,
should implement a written first- and second-tour officer and specialist development program.
(Action: Embassy Lusaka, in coordination with DGHR)

Recommendation 5: Embassy Lusaka should retire official records annually. (Action:
Embassy Lusaka)

Recommendation 6: Embassy Lusaka should enter all cooperative agreements into the Grants
Database Management System. (Action: Embassy Lusaka)

Recommendation 7: Embassy Lusaka should use the Award Specifics and Post/Program
Specifics templates for cooperative grants agreements under the President’s Emergency Plan for
AIDS Relief program. (Action: Embassy Lusaka)

Recommendation 8: Embassy Lusaka should follow procedures outlined in the Office of the
Procurement Executive’s Grants Policy Directives. (Action: Embassy Lusaka)

Recommendation 9: Embassy Lusaka should register its official social media sites on the
Information Technology Asset Baseline and include terms of use on the sites. (Action: Embassy
Lusaka)

Recommendation 10: Embassy Lusaka should use the Award Specifics template and other
grants documents required by the Office of the Procurement Executive’s Grants Policy
Directives and should begin the grant period after the grant officer signs the document. (Action:
Embassy Lusaka)

Recommendation 11: Embassy Lusaka should provide secure storage for the effects of
deceased Americans. (Action: Embassy Lusaka)

Recommendation 12: Embassy Lusaka should implement a plan to review International
Cooperative Administrative Support Services staffing and redistribute or add resources as
appropriate. (Action: Embassy Lusaka)

                                         28
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Lusaka should assign receiving clerk duties to a staff member
located at the embassy compound. (Action: Embassy Lusaka)

Recommendation 14: The Bureau of Overseas Buildings Operations should find a suitable
warehouse for Embassy Lusaka in time for the embassy to move into the new facility before the
current warehouse lease expires in 2013. (Action: OBO)

Recommendation 15: Embassy Lusaka should update the mission’s vehicle policy to limit
self-drive personal use of government-owned vehicles to arriving and departing U.S.
Government employees who are waiting for or shipping their personal vehicles. (Action:
Embassy Lusaka)

Recommendation 16: Embassy Lusaka should implement written fuel standard operating
procedures that provide for the separation of duties and appropriate oversight by a U.S. direct-
hire officer. (Action: Embassy Lusaka)

Recommendation 17: Embassy Lusaka should, in coordination with the Bureau of Overseas
Buildings Operations, settle the 141 unresolved warranty claims at the new embassy compound.
(Action: Embassy Lusaka, in coordination with OBO)

Recommendation 18: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Lusaka, should assess all underutilized or unused U.S. government-owned properties
and implement a plan to either reuse and renovate or dispose of these properties. (Action: OBO,
in coordination with Embassy Lusaka)

Recommendation 19: Embassy Lusaka should implement a plan to improve customer service
performance in the human resources section to include logging timeliness and accuracy of
response to queries. (Action: Embassy Lusaka)

Recommendation 20: Embassy Lusaka should publish an eligible family member recruitment
and hiring policy that describes the process and timelines and post it on the embassy Web site.
(Action: Embassy Lusaka)

Recommendation 21: Embassy Lusaka should inform all eligible family member job
applicants of the outcome of their applications for employment. (Action: Embassy Lusaka)

Recommendation 22: Embassy Lusaka should include all documentation from vacancy
announcement to final termination in employee official personnel files as prescribed by
Department of State regulations. (Action: Embassy Lusaka)

Recommendation 23: Embassy Lusaka should apply Department of State regulations
consistently on minimum qualifications for hiring and waiting periods for promotion and should
maintain a log of all new hires and promotions. (Action: Embassy Lusaka)

Recommendation 24: Embassy Lusaka should develop an annual leave plan for each section
to allow all mission employees to take leave according to personal need to the extent feasible.
(Action: Embassy Lusaka)


                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Lusaka, in coordination with the Bureau of Human Resources,
Office of Overseas Employment, should replace the third-country national financial specialist
with a locally employed financial specialist. (Action: Embassy Lusaka, in coordination with
DGHR)

Recommendation 26: Embassy Lusaka should thoroughly brief the locally employed staff
committee on how it established salary and benefits and seek its input on the local compensation
plan. (Action: Embassy Lusaka)

Recommendation 27: Embassy Lusaka, in coordination with the Office of Civil Rights, should
implement a Federal Women’s Program. (Action: Embassy Lusaka, in coordination with S/OCR)

Recommendation 28: Embassy Lusaka should balance the workload among the employees of
the financial management section with more direct supervision by the financial management
officer. (Action: Embassy Lusaka)

Recommendation 29: Embassy Lusaka should establish an International Cooperative
Administrative Support Services budget committee in accordance with Department of State
regulations. (Action: Embassy Lusaka)

Recommendation 30: (b) (5)


Recommendation 31: Embassy Lusaka, in coordination with the Office of Medical Services,
should implement standard operating procedures to allow its Foreign Service health
professionals to plan vacation well ahead of time and to provide needed coverage for the health
unit. (Action: Embassy Lusaka, in coordination with MED)

Recommendation 32: Embassy Lusaka should draft, coordinate, and publish a delegation of
authority document. (Action: Embassy Lusaka)

Recommendation 33: Embassy Lusaka should assign the appropriate general services officer
to spend at least 5 hours per week between both warehouse locations and incorporate this
responsibility into the officer’s work requirements statement. (Action: Embassy Lusaka)

Recommendation 34: Embassy Lusaka should implement procedures in conformance with
Department of State guidelines on the receiving functions at the warehouse and embassy
compound. (Action: Embassy Lusaka)

Recommendation 35: Embassy Lusaka should conduct a physical inventory of all stored
nonexpendable and expendable property and dispose of those items that are unserviceable or
cannot be reconditioned. (Action: Embassy Lusaka)

Recommendation 36: Embassy Lusaka should establish procedures for handling and storing
Department and other agency property in the embassy warehouse. (Action: Embassy Lusaka)

Recommendation 37: Embassy Lusaka should include a gifts officer in its designation of
responsibilities memorandum and publish this information in a mission gifts policy. (Action:
Embassy Lusaka)
                                              30
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 38: Embassy Lusaka should assign the supervisory general services officer
responsibility for reviewing supporting documentation and approving initial authorizations for all
official travel and incorporate this responsibility into both the delegation of authority
memorandum and the officer’s work requirements statement. (Action: Embassy Lusaka)




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Lusaka should clarify the portfolio and expand the
decisionmaking authority of the deputy public affairs officer.

Informal Recommendation 2: Embassy Lusaka should evaluate the job titles and grades of the
section’s secretary and audiovisual technician, rename the positions, and resubmit them to the
Computer-Assisted Job Evaluation system.

Informal Recommendation 3: Embassy Lusaka should use the Fixed Obligation Grant format
for its small, short-term, simple grants.

Informal Recommendation 4: Embassy Lusaka’s consular section should hold warden
conferences on an annual basis and encourage the wardens to visit the new embassy.

Informal Recommendation 5: Embassy Lusaka should reach out to all eligible family
members, including incoming eligible family members to assess interests and skill sets of
potential employees, and to the extent feasible match positions to available skill sets.

Informal Recommendation 6: Embassy Lusaka should require personnel to take the record
email training and to use, as required, the State Messaging and Archive Retrieval Toolset.

Informal Recommendation 7: (b) (5)


Informal Recommendation 8: (b) (5)


Informal Recommendation 9: Embassy Lusaka should include in the locally employed nurse’s
position description that the incumbent is on-call after hours.




                                         32
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                           Name       Arrival Date
Ambassador                                           Mark Storella           09/10
Deputy Chief of Mission                          Stephen Schwartz            07/10
Chiefs of Sections:
  Management                                             Jeff Smith         07/09
  Consular                                     Catherine McGeary            07/09
  Political/Economic                                     Tim Smith          08/11
  Public Affairs                               Priscilla Hernandez          08/09
  Regional Security                                   Shane Dixon           10/10
Other Agencies:
  Peace Corps                                    Thomas Kennedy             06/09
  Centers for Disease Control
    and Prevention                               Lawrence Marum             11/08
  Department of Treasury                           Kay Blackburn             1/09
  Department of Defense                          LTC. Derek West            02/09
  U.S. Agency for International
    Development                                   Susan K. Brems            07/11




                                       33
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CDC             Centers for Disease Control and Prevention

DCM             Deputy chief of mission

Department      U.S. Department of State

EEO             Equal Employment Opportunity

EFM             Eligible family member

FAST            First- and Second-Tour

FSNPAH          Interagency Handbook on Foreign Service National Personnel
                Administration

Global Fund     Global Fund to Fight AIDS, Tuberculosis, and Malaria

ICASS           International Cooperative Administrative Support Services

LE              Locally employed

MRR             Mission Resource Request

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General

PEPFAR          President’s Emergency Plan for AIDS Relief

USAID           U.S. Agency for International Development




                            34
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
